OFFICE OF THE DISTRICT ATTORNEY
Fourth Judicial District
105 East Vermijo
Colorado Springs, CO 80903

Daniel H. May
District Attorney

ADMINISTRATION
(719) 520-6000 \ FAX (719) 520-6211

Kim L. Kitchen
Assistant District Attorney

August 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Marcus Lee Robinson v. Colorado, No. 19-1218
Dear Mr. Harris:
Under Rule 32.3 of the Rules of this Court, the respondent in this case
requests permission to lodge non-record material with your office.
The non-record material is a six-page police report. It includes a statement
from the perceiving witness to a sexual assault, who told the report’s author that
she could see the details of the assault in a darkened room because of the disparate
skin tones of the alleged victim, a white woman, and the perpetrator, Marcus
Robinson, an African-American man. The report was provided to Mr. Robinson’s
trial attorney in pretrial discovery, but it was not mentioned at trial.
The prosecutor who tried Mr. Robinson for the assault made an opening
statement in which she predicted that the perceiving witness would testify that the
disparate skin tones of the parties enabled her to see a completed sexual assault.
But the witness did not testify as anticipated. Because defense counsel chose not
to object to the prosecutor’s remarks, no record about the basis for those remarks
was made.
The police report should be considered by the Court in evaluating the merits
of Mr. Robinson’s petition for a writ of certiorari, which characterizes the
prosecutor’s comments as nothing but a blatant appeal to racial prejudice and (in a
novel argument that seeks to recast the plain-error standard of review) asserts that

Honorable Scott Harris
August 27, 2020
Page 2

the government should bear the burden of showing the comments did not affect the
jury’s verdict.
The police report suggests that the prosecutor had a good faith basis for her
comments. It will provide the Court with a full understanding of the context in
which her comments were made. This is particularly important here, given Mr.
Robinson’s assumption that there was no legitimate basis for the prosecutor’s
remarks, and his novel argument that the government should bear the burden of
proving harmlessness beyond a reasonable doubt.
Sincerely,

Doyle Baker
Senior Deputy District Attorney

cc: Stuart Banner, Counsel for Marcus Lee Robinson

